COCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiers contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-1203

CHILDREN’S HOSPITAL
ASSOCIATION OF TEXAS, et al.,
Petitioners,
Vv.
ALEX M. AZAR II, SECRETARY OF
HEALTH AND HUMAN SERVICES, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR THE
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2979 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of September, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

Lheor Onda hb, Chl

Affiant 40055

    

A GENERAL NOTARY-State of Nebraska
RENEE J. GOSS

‘My Comm. Exp. September 5, 2023

Notary Public
